<html>
<title> - [H.A.S.C. No. 111-7]STRATEGIES FOR COUNTERING VIOLENT EXTREMIST IDEOLOGIES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


                                     

                          [H.A.S.C. No. 111-7]

         STRATEGIES FOR COUNTERING VIOLENT EXTREMIST IDEOLOGIES

                               __________

                                HEARING

                               BEFORE THE

    TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           FEBRUARY 12, 2009


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                  U.S. GOVERNMENT PRINTING OFFICE
55-050                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001

                                     
  


    TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES SUBCOMMITTEE

                    ADAM SMITH, Washington, Chairman
MIKE McINTYRE, North Carolina        JEFF MILLER, Florida
ROBERT ANDREWS, New Jersey           FRANK A. LoBIONDO, New Jersey
JAMES R. LANGEVIN, Rhode Island      JOHN KLINE, Minnesota
JIM COOPER, Tennessee                BILL SHUSTER, Pennsylvania
JIM MARSHALL, Georgia                K. MICHAEL CONAWAY, Texas
BRAD ELLSWORTH, Indiana              THOMAS J. ROONEY, Florida
PATRICK J. MURPHY, Pennsylvania      MAC THORNBERRY, Texas
BOBBY BRIGHT, Alabama
                 Kevin Gates, Professional Staff Member
               Alex Kugajevsky, Professional Staff Member
                     Andrew Tabler, Staff Assistant







                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Thursday, February 12, 2009, Strategies for Countering Violent 
  Extremist Ideologies...........................................     1

Appendix:

Thursday, February 12, 2009......................................    37
                              ----------                              

                      THURSDAY, FEBRUARY 12, 2009
         STRATEGIES FOR COUNTERING VIOLENT EXTREMIST IDEOLOGIES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Miller, Hon. Jeff, a Representative from Florida, Ranking Member, 
  Terrorism, Unconventional Threats and Capabilities Subcommittee     3
Smith, Hon. Adam, a Representative from Washington, Chairman, 
  Terrorism, Unconventional Threats and Capabilities Subcommittee     1

                               WITNESSES

Ibrahim, Raymond, Associate Director, Middle East Forum and 
  Author of The Al Qaeda Reader..................................     3
Doran, Dr. Michael, Visiting Professor, Wagner School of Public 
  Service, New York University, and Former Deputy Assistant 
  Secretary of Defense (Support for Public Diplomacy)............     7

                                APPENDIX

Prepared Statements:

    Doran, Dr. Michael...........................................    58
    Ibrahim, Raymond.............................................    44
    Miller, Hon. Jeff............................................    42
    Smith, Hon. Adam.............................................    41
Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Smith....................................................    65
 
        STRATEGIES FOR COUNTERING VIOLENT EXTREMIST IDEOLOGIES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
        Terrorism, Unconventional Threats and Capabilities 
                                              Subcommittee,
                       Washington, DC, Thursday, February 12, 2009.
    The subcommittee met, pursuant to call, at 1:46 p.m., in 
room 2212, Rayburn House Office Building, Hon. Adam Smith 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM 
  WASHINGTON, CHAIRMAN, TERRORISM, UNCONVENTIONAL THREATS AND 
                   CAPABILITIES SUBCOMMITTEE

    Mr. Smith. I am going to go ahead and call the meeting 
quickly to order and adjourn it, unfortunately. We have three 
votes that were just called. We could probably get a couple of 
minutes in before we have to leave, but I don't think that 
would be very helpful. So what we are going to have to do is we 
are going to have to adjourn. We will be back as quickly as we 
can, which, honestly, will be about 45 minutes.
    So I wish I could offer you something other than to say 
wait if you can, we would appreciate it, and certainly for our 
witnesses we appreciate your indulgence on that. It is just the 
way the schedule worked out. We should have a pretty clear 
block of time once we get these votes done, is my 
understanding.
    So we stand adjourned, and we will be back.
    [Recess.]
    Mr. Smith. Thank you. We will now reconvene and we were 
actually right about the 45-minute break. That doesn't happen 
often, so I am glad that worked out.
    I want to thank the panel today for joining us and the 
members. I will make a very, very brief opening statement, and 
then we want to turn it over to the ranking member, Mr. Miller, 
and then take the testimony from our witnesses.
    We are joined this morning by Mr. Raymond Ibrahim, who is 
the Associate Director for the Middle East Forum and also 
author of The Al Qaeda Reader, and Mr. Michael Doran, who is 
the Visiting Professor from the Wagner School of Public Service 
at New York University and the former Deputy Assistant 
Secretary of Defense (Support for Public Diplomacy). We 
appreciate both of you being here today.
    The purpose of the hearing is to get a little bit of a 
broader understanding of the terrorism threat, specifically 
from al Qa'ida and accompanying ideologies. What this 
committee's prime focus is on is on counterterrorism. We do a 
lot of work at the Special Operations Command, which is the 
lead command in fighting the war on terror, and we try to take 
as comprehensive an approach as possible.
    There are obviously lots of very small bits and pieces to 
what we do, giving Special Operations Command the proper 
support, and we also have some jurisdiction on cybersecurity 
and information technology (IT) issues, and we are very 
concerned about that, the broad defense threat reduction 
efforts of Defense Threat Reduction Agency (DTRA) and other 
agencies and also counterproliferation, Weapons of Mass 
Destruction (WMD), and we drill down into each one of those 
specific topics in this subcommittee to figure out how we can 
be most helpful in those areas.
    But overall what we have most tried to do under my 
leadership and under Mr. Thornberry's leadership when he was 
ranking member on the committee is try to take the 
comprehensive approach to try to truly understand what we are 
fighting and how to defeat it so we don't get stovepiped in 
little different pieces of it and not understanding the big 
picture.
    The main purpose of this hearing is to help with that 
broader understanding of fighting, the threat from violent 
extremists. To understand, as the military knows better than 
anyone, we cannot win this simply by identifying all the 
terrorists in the world and then killing or incapacitating 
them. That will not work.
    That is necessary in order to disrupt the existing networks 
and prevent attacks against us and other Western targets, but 
it will not ultimately defeat our foe. This is an ideological 
struggle, and we need to understand that ideology, and we need 
to confront it in a comprehensive way that includes far more 
soft power than hard power, and that is what we are hoping to 
learn from our two witnesses today, is to get a little bit more 
background on what the ideology is that we are fighting and 
what the best way to confront it is, what we have done right, 
what we have done wrong, and what we need to do better.
    So I very much look forward to the testimony and the 
questions. A final thing I will say is we will adhere to the 
five-minute rule, particularly on the questioning, something I 
learned. I paid you a compliment a moment ago, Mr. Thornberry, 
so you walked in a second too late, but you can ask people 
about it later.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 41.]
    Mr. Smith. We have a small group of people here, but I 
find, nonetheless, the Q&A flows better if members are mindful 
of a time limit. So, most members, you will have more than one 
opportunity. As far as witnesses are concerned, we do have a 
clock. In general, I like to keep the statements in the less 
than ten-minute area. I find the dialogue works better.
    I believe Mr. Ibrahim has asked for the time on our clock, 
and it only has five minutes on it. So we will wait five 
minutes and then start the five-minute clock and give you some 
idea when the ten minutes are up and then we will go into Q&A.
    With that, I will welcome the committee's ranking member, 
Mr. Miller, I very much look forward to working with him. I 
enjoyed working with him on the Armed Services Committee.
    Again, I just wanted to say what an outstanding job Mr. 
Thornberry did as ranking member during the last two years. You 
do have very big shoes to fill.
    Mr. Miller. Okay, okay, okay. We know the former ranking 
member was a good guy.
    Mr. Smith. We are confident you will fill them. With that, 
I will turn it over to Mr. Miller.

 STATEMENT OF HON. JEFF MILLER, A REPRESENTATIVE FROM FLORIDA, 
     RANKING MEMBER, TERRORISM, UNCONVENTIONAL THREATS AND 
                   CAPABILITIES SUBCOMMITTEE

    Mr. Miller. Mr. Chairman, it is a pleasure to be back on 
this subcommittee. I do look forward to continuing the good 
works of the past years. I have a full statement I would like 
entered into the record, but because of the time that we have 
lost with votes, I would like to go ahead and hear the 
statements. So thank you very much.
    [The prepared statement of Mr. Miller can be found in the 
Appendix on page 42.]
    Mr. Smith. Great. Thank you. Mr. Ibrahim, the floor is 
yours.

 STATEMENT OF RAYMOND IBRAHIM, ASSOCIATE DIRECTOR, MIDDLE EAST 
            FORUM AND AUTHOR OF THE AL QAEDA READER

    Mr. Ibrahim. Mr. Chairman, what I would like to address 
today specifically, well, is many-fold, and the first thing is 
ultimately the consideration about how one can go about 
implementing a strategy to counter radical Islam and its 
ideologies. The fact is it is necessary, I think, to go back 
and recognize the abysmal failure that has permeated, more or 
less, all approaches, both, I think, governmental and 
otherwise.
    And that, I think, roots back to the academic world and 
academia where, of course, many of the future analysts and 
thinkers come from, which is to be expected, in that the 
academic world has tended to all but ignore Islamic theology, 
Islamic doctrine, Islamic history, or to minimize it and 
overlook it and, instead, presents what is more intelligible to 
the Western world view, which is, I think, somewhat normal for 
all humans. They end up projecting what they believe are norms 
to other peoples.
    And so in academia, for example, where I come from, you 
cannot discuss this--you know, if when we talk about terrorism 
and radical ideologies, to actually go back and try to 
demonstrate that there is some sort of body of doctrine that 
supports it, is usually completely--it can be anathema in 
certain circles and you can lose your position--and there are 
actually entire books written about this.
    Now, why that is, and is it, you know, because of political 
correctness and people are in search of tenure is not the 
point. So what I am saying is ultimately there needs to be kind 
of a revolutionizing to the academic approach to understanding 
terrorism and appreciating the Islamic doctrines that make the 
backbone.
    And in connection, what has been happening is--and this is 
what I mean by people in the West or Americans tend to project 
to their world view is the following concept:
    Wherever you go, ultimately you will be told that Islamic 
radicals, al Qa'ida, all that they are doing is ultimately 
rooted in political grievances, and they themselves will say 
that, specifically when they are addressing Western audiences 
and Americans.
    They will say, we are attacking you because--and the list 
can go on and on, from of course the usual Israel and 
Palestine, Iraq, Afghanistan--but you will even see other 
accusations such as Osama bin Laden telling Americans who are 
attacking you because you failed to sign the Kyoto Protocol or 
because you exploit women and things of that nature.
    Now, the logic behind radical Muslims and radical Islamism 
in general in doing that is that they are smart enough and they 
are aware to know that by using the language of political 
grievance they will strike a chord with Westerners and 
Americans who will immediately assume, yes, this is what it is 
all about. These people are angry, and they are articulating 
their frustration through an Islamist paradigm because that is 
all they know, but fundamentally, if all these political 
grievances are ameliorated this will all go away.
    Now the problem with that, and this struck me immediately 
when I was working on my book and translating The Al Qaeda 
Reader, is even though I was aware of all their political 
statements to the West via Al Jazeera and other mediums 
demonstrating this, which is them saying you started the fight, 
you are doing this and now we are fighting you back, when you 
look at the writings that they send to fellow Muslims, which 
discusses this animosity, all of these political grievances 
disappear and all you are left with is essentially what Islamic 
law demands. And it doesn't matter anymore if the U.S. does 
this or the U.S. does that.
    And when you start studying Islamic law, and by Islamic law 
I am not talking about what Osama bin Laden has interpreted, I 
am talking there is an entire body and canon of Islamic law, 
also known as Sharia, which is very well codified and which has 
existed centuries before Osama bin Laden came on the scene.
    So to give you an example, according to Islamic law or the 
Islamic world view, the entire world is separated into two 
divisions. On the one hand, you have what in Arabic is called 
Dar al Islam, which means the abode of Islam or the abode of 
peace, and that is the good guys. This is where Sharia 
dominates and this is where Muslims thrive.
    On the other hand, what you have is the abode of war, and 
that is where we live, essentially, anywhere in this world 
where there is a majority of non-Muslims, aka/infidels, who 
live and Sharia law is not governing them.
    Now, when I say this a lot of people say, well, this sounds 
ridiculous, but the fact is this is as well codified in Islamic 
law as any of the Five Pillars of Islam. So a lot of people 
will tell you Islam, praying and fasting, going on the Hajj and 
giving charity, these are not open to debate.
    The fact is, jihad, in order to spread Islamic authority 
and Islamic rule, is in the same category. It is not open to 
debate. It is considered an obligation on the entire Muslim 
body.
    Now, what I am talking about now is law, is doctrine. I am 
not here to say that every Muslim wants to do this, every 
Muslim is actively trying to subvert the West and trying to 
implement Sharia, and so I always make a distinction between 
what the law says and what people do. What people do is 
irrelevant and what they believe in or if they want to overlook 
that or they want to reform it, that is one thing. But that 
also brings a point that if this is the law, if this is the 
codified world view, no matter how many Muslims are, quote, 
unquote, moderate or how many overlook it, I believe there will 
always be a significant few who do uphold this world view.
    And then when you really look at numbers, even if we were 
to say, I mean, given the benefit of the doubt, that 20 percent 
of the Islamic world are radical, are the sorts who would 
implement this hostile world view, that is not very reassuring 
because the nature of the war, terrorism, which now no longer 
requires numbers and force, because, as we have seen, 19 men 
were able to create horrific damages on 9/11.
    So that is the problem. It is not necessarily which Islam 
is right. The fact is the traditional form of Islam is such 
that there are very many intolerant positions vis-a-vis non-
Muslims, and this is a problem when people use the language of 
al Qa'ida and radical Muslims have hijacked Islam. That is 
simply not true because what they are doing is they are 
implementing it.
    Now, it is true they may try to distort things. They may 
engage in sophistry which goes a long way, and I will give you 
an example. So I just got done saying according to the Islamic 
world view there is this concept where Muslims must always go 
on the jihad, on the offensive. So radical Muslims will then 
come in and say look, this is how it is. Now how much more is 
to be expected of us if we are now defending ourselves in 
Palestine or in Iraq or in Afghanistan? And that kind of 
argument ends up mobilizing lots of Muslims because they see 
the logic, on the one hand, far from actually going on the 
offensive which, I might add is seen as an altruistic thing. 
Muslims don't believe when they go on jihad in order to 
subjugate infidel lands, they don't see that as, you know, 
unjust. They see that as pure altruism because we are bringing 
the light of truth and Islam to the infidels.
    I say all of this, not by conjecture, but by reading 
extensively Arabic books that demonstrate this, and the logic 
is sound from their perspective.
    So ultimately what I am saying is it is necessary to begin 
taking the doctrine seriously, not just being content with 
saying, well, Muslims are doing this because they are angry 
because of Israel or because of this. And one consideration to 
keep in mind that I think dispels that point of view is that a 
lot of people in this world are disgruntled and oppressed, but 
you don't see this sort of behavior from other places.
    You won't see a Cuban living in a Communist regime driving 
in a truck and saying, you know, Jesus is great and killing 
people, or you don't see Chinese in oppressive Communist China 
also retaliating in this way. So I think there is reason to 
take seriously these doctrines. And once they take these 
doctrines seriously and methodically begin to understand them 
and incorporate them, I believe a more appropriate strategy 
will come into being. Because to sit and say we are combating 
terrorism in and of itself, anthropomorphizing a word like 
``terrorism'' as if it is a person or a concept or even an 
ideology, when in fact it is just a method, doesn't help us.
    And so we know, for example, Sun Tzu, to go back to a 
classical war doctrine, said ``Know your enemy,'' and that is 
very important. But, unfortunately, here it seems that the U.S. 
is having problems even acknowledging who the enemy is.
    And to give you a few examples, maybe you are familiar with 
the words ``matter debate,'' where there was a memo circulated 
around the government trying to advise writers and thinkers and 
analysts not to use Islamic-laden words such as ``Sharia'' or 
``mujahid'' or even ``jihad'' and instead just use the generic 
``terrorist.''
    I think that completely handicaps any kind of approach to 
trying to formulate a strategy, because you are in effect, by 
limiting and censoring your language, you have limited 
knowledge in and of itself because there is--language and 
knowledge are obviously linked.
    And also I read recently, and it is one thing, as I know in 
the academic, the civilian academic world to have encountered 
what I am discussing, which is this total lack of appreciation 
for Islamic doctrine, but it seems to have begun to infiltrate 
even the military. For example, I was reading at the U.S. War 
College that one of their members or faculty members wrote 
essentially an apology for Hamas saying that they are 
villainized and misunderstood when in fact if you study Hamas 
and see what they say, they are a complete jihadi organization 
which upholds all of those things that I have delineated, 
including the offensive aspect towards the world. And they 
often say, forget about Israel, but ultimately there should--
Sharia law needs to eventually, according to our beliefs, be 
spread around the world. So in a nutshell that is what it comes 
down to.
    I believe that we need to start taking more seriously what 
they say, their epistemology, their background, their world 
view, which is so obvious. And this is the irony, it is 
everywhere you look, there it is. It is not like they hide it 
so much.
    When I worked for the Library of Congress, for example, I 
worked in the Middle Eastern Division and so I had access to 
thousands of Arabic books. It seems to me any one of those 
books that I would read would give you a better insight into 
their mind than the average American book that comes out, 
because the American book comes out, once again, colored by a 
Western philosophy which all but ignores doctrine and theology.
    And I think I am up.
    Mr. Smith. Okay. We will certainly explore a lot of those 
themes in our questions.
    Mr. Ibrahim. Thank you.
    [The prepared statement of Mr. Ibrahim can be found in the 
Appendix on page 44.]
    Mr. Smith. We appreciate your testimony.
    Mr. Doran.

  STATEMENT OF DR. MICHAEL DORAN, VISITING PROFESSOR, WAGNER 
   SCHOOL OF PUBLIC SERVICE, NEW YORK UNIVERSITY, AND FORMER 
   DEPUTY ASSISTANT SECRETARY OF DEFENSE (SUPPORT FOR PUBLIC 
                           DIPLOMACY)

    Dr. Doran. Mr. Smith, Ranking Member Miller, former Ranking 
Member Thornberry, thanks very much for having me again.
    Your letter of invitation asked me to look at--come up with 
a number of recommendations for a whole of government approach, 
and I was very excited to see that.
    I am working now at NYU. I started my job there on the 20th 
of January. Before that I served at the National Security 
Council (NSC) as the Senior Director for the Near East and 
North Africa and the Department of Defense as the Deputy 
Assistant Secretary of Defense for Support to Public Diplomacy 
and as a Senior Adviser to the Under Secretary for Public 
Diplomacy and Public Affairs, Jim Glassman, at the State 
Department. And this multi-agency experience I had has made me 
focus like a laser on this issue on the whole of government 
approach.
    I think your question is absolutely the key question that 
we face. We can't really put together--we can't really put 
together--or we can have all the greatest strategies in the 
world on paper, but until we are organized to deliver it 
strategically we are going to find ourselves falling all over 
ourselves.
    So I have written a lengthy statement, which I will submit 
for the record, and I will keep my introductory comments here 
very, very short.
    I basically discuss in this statement where we could put 
this what I call a strategic operational center for strategic 
communications. I think that countering violent extremism is 
part of a larger government enterprise, which I am calling 
strategic communications.
    When you listen to the debates out there, there are 
basically three options that you hear. Option number one is to 
put it at the NSC. Option number two is to create a new kind of 
United States Information Agency (USIA) or something like it, 
and option number three is to keep it in--the lead for this in 
the Office of the Under Secretary of State for Public Diplomacy 
and Public Affairs or State ``R''.
    In my statement, I come down in the end on the side of 
keeping it in the State Department because I think that the 
organization needs to be a strategic operational organization, 
and that kind of militates against putting it in the NSC. You 
need, absolutely, for strategic communications to work 
effectively, it has to have a lot of support from the President 
and from the White House. There needs to be somebody at the 
White House who is very much focused on it, but there also 
needs to be an operational center. And no matter how you think 
about this, you keep finding yourself coming up against the 
State Department. Nothing that we do abroad, outside of areas 
where we are in a hot war, nothing that we do abroad can be 
done without the support and concurrence of the State 
Department.
    So I argue that we should put it there. But there is a 
problem there in that the Under Secretary of State for Public 
Diplomacy and Public Affairs is a weak under secretary. When 
they broke up USIA, they took the remnants and they put it in 
the State Department, but they took away a lot of the autonomy 
that the organizations had. In the old USIA they could conceive 
and carry out public diplomacy strategies. Currently if the 
under secretary has the lead for countering violent extremism, 
if he is the commander of the overall effort, he has no troops 
in the field because all the public diplomacy officers in the 
field report to the ambassador, they are rated by the 
ambassador and by the regional bureau back at State, not by the 
undersecretary's office.
    So we have given--in the Bush administration we gave the 
lead to the under secretary, but we didn't give him the 
resources and the authorities necessary to actually carry--
conceive of a strategy and carry it out.
    And the other factor that I discuss in there as well is the 
general mission of ``R''. Back--``R'' was--USIA came to 
maturity during the Cold War. In that conflict with the Soviet 
Union, where we had a strategic rival that had a whole 
different social, political, economic way of life, the key 
issue for us was to brand America, was to show our way of life 
to the rest of the world in order to demonstrate its 
superiority.
    That is basically what most of the programs, historically, 
in what is now ``R'' have done. So there is a general bias in 
the organization towards those kinds of activities that tell 
America's story.
    The kind of conflict we are in now, where we don't have a 
peer competitor, strategic rival, where a lot of the debates 
that have strategic importance for us are not debates about 
America but debates about the identities of people, debates 
that look rather parochial from a distance but end up 
generating violence, it is no longer as important to tell 
America's story. Telling America's story is still extremely 
important, but there is a whole 'nother dimension there that we 
need to be investigating, and we need that organization, the 
strategic organization at the State Department, to be focused 
on that to a much greater extent than it has been.
    Now, Jim Glassman, if you go back and you look at his 
statements, you will see that he got this completely. He 
started a number of different programs to try to move the 
organization in that direction, and he distinguished himself 
from all of his predecessors, the under secretaries that 
preceded him, in that he vigorously engaged with the Department 
of Defense and with other agencies that have a role in this 
strategic communications endeavor.
    Just having them, just having the designated lead say I 
want to coordinate with the rest of you, I want us all to be on 
the same page and have the whole of government effort, had a 
hugely empowering impact on the different communities within 
the other agencies that are engaged in this.
    I mean, if you look at the strategic communications 
communities in the different agencies you will see that they 
are all kind of comfortable in each one of their organizations, 
because in every organization it is always going to be the 
regional guys who are the heavyweights, and the people who are 
working on the communications piece are always kind of 
afterthoughts. So if you have a powerful proponent who has all 
of the government lead for this, who is saying I want to work 
with you, it has a way of elevating all of them.
    I will stop there and we can take questions.
    [The prepared statement of Dr. Doran can be found in the 
Appendix on page 58.]
    Mr. Smith. Thank you very much. I have a lot of questions 
for both of you, but I am going to adhere to the five-minute 
rule as well. We will come back around.
    I will start with Mr. Ibrahim, and I think you make an 
outstanding point, an understanding of the basis of this 
ideology, and al Qa'ida's ideology, is core to how we intend to 
defeat it, and we tend to brush over that.
    There are two points I would like to explore, however. 
First of all, the reason I think that people brush over it, the 
reason in particular for that State Department memo that you 
mentioned, was because, you know, one thing we have long 
understood is the moment those who actively adhere to the 
ideology that al Qa'ida and others advance is a relatively 
small percentage of the Muslim population. You can disagree 
with that if you want, because you know better than I, but I 
think that is the case.
    And what we are leery of, you know, is creating an approach 
to counter al Qa'ida that unites 1.3 billion Muslims against 
us. And I have learned from firsthand experience in talking 
about this issue that any time you link what bin Laden is doing 
to Islam, you offend--I have not met the Muslim who that does 
not offend. Maybe I will at some point, but I have not yet.
    So the strategy is to try to separate al Qa'ida from the 
broader Islamic religion and not give them that imprimatur, if 
you will, to give them that stamp of legitimacy that elevates 
them in the Muslim world. So I am curious what you think about 
how we can sort of split that difficulty.
    The second part of this, which seems to be connected, you 
seem to be saying that al Qa'ida is, in fact, representative of 
the entire Muslim world. That is what the Koran says, that is 
what it says that all Muslims should do, which is a big problem 
if that is the case. And I have read a little bit about this, 
certainly not as much as you have.
    But within all religions there is always that tension 
between, you know, our job is to make everybody else in the 
world like us, a sort of growing reality in the modern world 
that that is simply, you know, a recipe for mass destruction 
and death, and so we can't adhere to it.
    So new philosophies are developed. Certainly Christianity 
went through that to some extent when you look at the 
Inquisition and other things that happened where they began to 
accept that they could adhere to their faith and allow others 
to have a different one, and we have to be able to do that. We 
have to be able to find some way so that there is a bulk of 
Muslims who they could be very strict adherence to their faith 
and accept others.
    And your testimony seems to imply that there is very little 
hope for that. In fact, that is just the way it is. There is no 
other way to interpret the Koran, and this is the only thing 
that is necessary for good Muslims.
    The question would be, how can we explore their options, 
because there are moderate Muslims who don't adhere to that 
theory that everyone has to adopt their religion. Is there any 
wiggle room in there in terms of how do we interpret that. And 
how do we do that and deal with the challenge of not uniting 
the Muslim world against us by condemning their entire religion 
and dumping them all into one category.
    Mr. Ibrahim. All right. Thank you, very good questions. I 
might start with the second one, actually.
    I don't--I think one of the biggest intellectual 
difficulties many people have is they think there is al Qa'ida, 
which is a radical Islamic group, and then maybe Hamas or 
Hezbollah and mainstream functions. And that distinction is I 
think valid, but what needs to be understood is, I believe, for 
example, if al Qa'ida were to disappear tomorrow that is not 
going to make their ideology also disappear. Because their 
ideology, as I was saying, is ultimately traced back to all of 
these doctrinal world views that were codified centuries 
before. And that is why it is almost like, if you will permit, 
the Hydra monster that the mythical Hercules went and fought. 
Every time he chopped a head off, two more grew up.
    Mr. Smith. Granted, but a whole lot of Muslims haven't 
followed that stream of thought.
    Mr. Ibrahim. No. No, I understand.
    Mr. Smith. So there is hope there.
    Mr. Ibrahim. Yes. And this is the strategy that I would put 
forth, is that classical jurisprudence and doctrine is very 
clear-cut. In fact, in Sunni Islam, mainstream Islam, which 90 
percent of Muslims adhere to, the way every--and this is why I 
always stress on this concept of epistemology, in that we can't 
even begin to understand how they formulate the world view. But 
according to Sharia, every action that any human being can do 
is classified as being obligatory or recommended or permissible 
or discouraged or forbidden.
    Okay. Now, the concept of jihad, in Arabic the sabil Allah, 
in order to understand, this is one of the obligatory ones.
    Mr. Smith. If we make it very specific, the obligatory part 
that is the problematic part of that, is the obligation to 
force everybody else in the world to live under that law.
    Mr. Ibrahim. That is correct.
    Mr. Smith. It is your interpretation that is just black and 
white.
    Mr. Ibrahim. That is black and white. Now, having said 
that, I am not--I do not believe every Muslim believes that. 
But here is the problem, and this is why I think radicals have 
a better leg to stand on, because they are better textually 
grounded, better grounded in doctrine. The logic is the Koran 
is the verbatim word of God, for instance. The Koran says to 
Muslims, and so the Koran says go fight infidels until you 
subjugate them.
    Mr. Smith. You would give me the same look if you said that 
about the Bible, by the way, so that wasn't specific to the 
Koran.
    Mr. Ibrahim. Right.
    Mr. Smith. Go ahead.
    Mr. Ibrahim. And then there is the hadith, and this is even 
more important in certain respects than the Koran when it comes 
to articulating Islamic law, and that is even more clear-cut 
insofar as how Muslims are to do this.
    Now, again, does your average Muslim want to do this? No, 
not necessarily, but this is the strength that the radicals 
have and that is why they have a stronger voice because they 
can always go back and say well, this is what it says. Why 
aren't you doing it? When you start saying, well, I am trying 
to make it a better fit into the 21st century, I am trying to 
reform it, that is considered apostasy because God's word 
transcends time and space. And so if God said in the seventh 
century do X, Y and Z why now are you going back to say no, we 
want to change it.
    Now, I know this sounds very dismal.
    Mr. Smith. I guess I have to cut myself off and let Mr. 
Miller----
    Mr. Ibrahim. Okay.
    Mr. Smith. I understand that. I think, you know, one of the 
things that all religions as they move into modernity have to 
accept is that it is a lot more flexible than that, that God 
contemplated a changing world, that he didn't lock in all of 
the stocks a long time ago. That is one of the keys, I think, 
to getting people----
    Mr. Ibrahim. That is fair, but tell that to a Muslim.
    Mr. Smith. We have to, we have to tell that to Christians 
too with great frequency, but I have to get to Mr. Miller. We 
can resume this later.
    Mr. Miller.
    Mr. Miller. Thank you, Mr. Chairman.
    Carrying on, you know, Mr. Ibrahim, the power of rumors is 
very strong.
    Mr. Ibrahim. Power of rumors?
    Mr. Miller. Rumors.
    Mr. Ibrahim. Okay.
    Mr. Miller. In the Arab world in particular, and what I 
want to know, and in Iraq, I guess, in particular, what can we 
do to combat those rumors?
    Mr. Ibrahim. The rumors such as that the U.S. is here to 
obliterate Islam and things like that?
    Mr. Miller. Sure.
    Mr. Ibrahim. The thing is about the Arab world 
specifically--and I know this firsthand--is this is a lot of 
paranoia and conspiracy theories permeated. And so the concept 
to your average Arab that these people are here just to help us 
just because they are being altruistic is--might be 
problematic, especially because you have all these other groups 
like al Qa'ida who will go out of their way and exploit and 
say, no, that is not what they are doing. You know, they are 
doing this and this ultimately is better represented with 
Israel and the Zionists. Everything, maybe you are aware but 
things like the Protocols of the Elders of Zion and Mein Kampf 
are best sellers in the Arab world, that kind of thing.
    So in a way if you give olive branches and make 
concessions, that might be seen in a good way or that might be 
seen as, well they have an ulterior motive, or by the more 
radical types that it will be seen as an admission of defeat. 
And, see, that is a different thing going back to the different 
world view. When you give in to certain peoples, they think you 
are weak and this is more evidence that we are right. And so it 
actually brings on a greater offensive from them.
    Now, granted, again, I am talking about a select group of 
people, not everyone.
    And the bottom line is a person can identify himself as a 
Muslim, and that doesn't mean that he believes in any of the 
things that I have just said, because that is like a person 
whom I think he is a Christian or a Jew or whatever, and he 
just has a very liberal interpretation.
    But I am talking about the core people who fall into just 
following the straight black and white world view that Islam 
teaches, and I think this is the ultimate intellectual barrier 
for Westerners to understand.
    Coming from the West, being that it is coming from a 
Christian heritage, whether Westerners today practice it or 
not, I think I have taken for granted the notion of separation 
of church and state, which actually has precedence in the New 
Testament when Jesus said, ``Render unto Caesar what is 
Caesar's, render unto God what is God's.'' A split. And I think 
that helped actually let the West develop this thing.
    That is totally antithetical to the Islamic world. Islam is 
all about submitting. That is what the word means. What are you 
submitting to? You are submitting to the will of Allah, as has 
been articulated in the Koran, in the hadith, which are the 
words of Mohammed and his actions and deeds. And so to come and 
say we want to separate, you know, what Islam teaches, and that 
is the whole thing. Islam is very much caught up in very 
mundane things, you know. You are supposed to eat with a 
certain hand. You are supposed to, you know, not wear gold 
rings, and people take this seriously. And that is why we have 
to not condescend and think, you know, they are just reacting 
that way because they are angry and they are trying to fall 
back on something. Maybe some are but others take this 
literally because it has been going on for 1,400 years, and it 
is understood that this is how you implement true Islam. So, 
again, that goes back to the problem.
    So trying to formulate a response, it is--I believe the 
best way is far from trying to tell people, going back I think 
to Chairman Smith's original question about the memo and trying 
to separate al Qa'ida from mainstream Islam, while that is a 
noble endeavor there is another aspect to it, which is 
basically the Muslim world is not waiting around to see what 
kind of legitimacy the U.S. is going to confer on al Qa'ida, 
because the U.S. is seen as a non-Muslim infidel entity, which 
is already on the wrong path. So whether it calls al Qa'ida 
jihadists or not, or calls them--I have read the memo where 
other words are posited like ``muhara,'' which means like a 
pirate--I don't think that is going to go very far in the Arab 
Muslim world because the U.S. is not in a position to actually 
make an opinion that has to do with Islam in the first place.
    Mr. Miller. Is there such a thing as a good Muslim and a 
bad Muslim?
    Mr. Ibrahim. There are good people and bad people, and 
there are good Christians and bad Christians and good Hindus 
and bad Hindus. But see, and that is the thing----
    Mr. Miller. Are there good Muslims and bad Muslims?
    Mr. Ibrahim. But--and that is the thing. If you think of 
them----
    Mr. Miller. My question was, you just said there were good 
and bad Christians. You just said there good and bad Hindus. 
But are there good and bad Muslims?
    Mr. Ibrahim. There are good and bad Muslims, but we have to 
understand what we mean by the word ``Muslim.'' I think a lot 
of people think by the word ``Muslim'' they conflate it with a 
certain race or certain culture or certain ethnicity. But to me 
a Muslim is literally a man who, or woman who is, as the word 
means, submitting to the will of Allah. That is a true Muslim.
    Mr. Miller. I am just trying to find out--Pensacola, where 
I come from, we have what I would call pretty radical Christian 
beliefs in regards to bombing of abortion clinics. I don't 
think that is right, and I am willing to speak out against 
that.
    Mr. Ibrahim. Right.
    Mr. Miller. My question is, you know, are there Muslims 
that are out there speaking out against those that I think have 
hijacked them. And my time has run out. Would you think about 
that and then----
    Mr. Smith. Give a quick answer to that.
    Mr. Ibrahim. Okay. Well, basically the abortion thing, 
which I hear a lot about, it ultimately to me comes down to----
    Mr. Miller. By the way, I am pro-life when I say that.
    Mr. Ibrahim. Okay, I understand. What it comes down to, to 
me anyway, is can this person who claims to be a Christian find 
precedence in the Bible that tells him to go and, you know, 
bomb an abortion clinic. I would argue no, at least not in the 
New Testament.
    Now, compare that with the last time I did a survey, 
several thousand statements, direct by Mohammed, saying go and 
wage war and subjugate infidels. So this is what I mean.
    Yes, people can say I am a Christian or whatever religion 
and do bad things, and people can say I am a Muslim and do 
great things. So I really--I try not to get into the realm of 
human will but more what doctrine teaches.
    And as long as the doctrine is there, and this is the 
problem, there will be those who will take it seriously. Even 
if they are the minority--and I am not saying the majority of 
Muslims believe this, because I think the majority of Muslims 
don't even know about these doctrines--but--and that is what 
makes the radicals more powerful because they are able to go 
and delve into these arcane doctrines, bring them out, bring 
out the classical jurisprudence, and then show these things.
    And then how is a moderate, who wants to be a moderate, 
going to actually have a leg to stand on to counter all that 
without being accused of apostasy, which, by the way, according 
to Islamic law earns a death punishment.
    Mr. Smith. Mr. Andrews.
    Mr. Andrews. Thank you, Mr. Chairman. Thank you to the 
gentleman and to the witnesses.
    Mr. Ibrahim, if I were in the Iraqi Parliament, and I 
wanted to make the argument that people should use any means 
necessary to expel the American occupiers from our homeland, 
and I used as the textual basis of that of the Judeo-Christian 
text in which the Christians and Jews are instructed there is 
only one God. Thou shalt have no other God but me. I am the 
only God. And I cited that as authority for the proposition 
that Christians and Jews have a responsibility to expel others 
from the realms of power, and that is why the Americans are 
occupying my country. Would I be on legitimate ground 
theologically?
    Mr. Ibrahim. I would argue no and I think I can give you a 
better example from the Bible.
    Mr. Andrews. Why won't you take mine. Why would I not be on 
valid theological ground?
    Mr. Ibrahim. Because, where exactly in the Bible does it 
say that?
    Mr. Andrews. Well, the Ten Commandments instruct Christians 
and Jews that they should believe in one God, and that is the 
God of the Judeo-Christian heritage. So if you believe in some 
other God then you are apostate, right?
    Mr. Ibrahim. But there is no imperative in the Bible--as 
opposed to the Koran and the hadith--saying or inciting 
Christians to go and subjugate the rest of the world.
    Mr. Andrews. Well, it depends on what we mean by 
imperative. You could make the argument that most of the Old 
Testament is a chronicle of wars waged by the Israelites in 
order to gain territory, because they are God's chosen people. 
So even though there may not have been an explicit command to 
go to war, there is book upon book that says you should wage 
war to claim what God has promised you.
    And wouldn't that be consistent with what the Iraqi 
dissenter would say about us?
    Mr. Ibrahim. Not really, and there is a very subtle reason. 
In fact, the Old Testament wars are the examples that I was 
going to go to because those are usually the ones that are 
cited as showing how the Old Testament can just be interpreted 
as being a religion of conquest as much as Islam. And I will 
give you--the simple anecdote is the Book of Joshua, where 
Joshua is commanded to go--and essentially it is almost like 
genocide and he kills everyone, including animals, you know, 
every human, beast. He just totally purges.
    The difference between that imperative, and, you know, 
anyone can make a moral decision about that, whether it was 
right or wrong or what happened----
    Mr. Andrews. No, I didn't tell you to make any moral 
judgments. I am talking about doctrinal----
    Mr. Smith. Please let him finish.
    Mr. Andrews. Go on.
    Mr. Ibrahim. But the difference between that and what you 
have in Islamic text is that if you look at it, and I have 
looked at it closely, they were very temporal in-the-now 
commandments from Yahweh or God. Basically if you read it, it 
commands the Hebrews to go and kill the Jebusites and the 
Jebusites and the Philistines until you get this piece of land.
    It was not, as opposed to the Islamic doctrines, an open-
ended command. And if you look at the language in the Koran----
    Mr. Andrews. But couldn't one argue that God's word in the 
Old Testament isn't temporal, just as God's word in the Koran 
is not. And if--in the time of Joshua the command was to 
dominate a particular piece of land on the west side of the 
Jordan River, then the command in global times is to command 
the whole globe, including what we now call Iraq.
    Mr. Smith. If I could dive in here, God's word is temporal 
if he says it is temporal. But if he says it is not, it is not. 
That is the distinction.
    Mr. Ibrahim. That is what I am saying. In the Koran it says 
fight them. The key word you always see is fight them until 
they are subjugated. Fight them. And so this is why it became 
codified into the Islamic world view as a perpetual warfare 
between the abode of Islam and the abode of war until the 
latter has been subsumed----
    Mr. Andrews. I actually think this discussion, which I 
appreciate very much, goes to the point that I was trying to 
implicitly make. History is replete with circumstances where 
people interpret the meaning of religious commands as they see 
fit. So, for example, one could argue that the Koran's mandate 
to go evangelize, to mix cultural references, but to go do so, 
has--is really more of a cultural and educational command and 
not necessarily a violent one.
    Now I think you would disagree with that, but the 
hypothesis I am asking you to respond to is that couldn't a 
good Muslim be someone who uses the tools of the arts and 
culture and persuasion to try to convince others to submit 
rather than a means of violence. Is violence necessitated by 
the Koran?
    Mr. Ibrahim. No--actually, you are not supposed to go on an 
offensive jihad until you first invite people to Islam. If you 
can do it peacefully, that is fine. But jihad is the last means 
if they refuse, and this is how it has been historically. You 
have to remember, for example, to Muslims the golden era of 
Islam is Mohammed and the first what are called righteous 
caliphs which thrived for about four or five decades. In that 
period alone Islam burst out of the Arabian peninsula----
    Mr. Andrews. My time is running out, but I would ask you 
this. Was the Crusade a Judeo-Christian jihad, offensive jihad?
    Mr. Ibrahim. The Crusade was a belated response to 400 
years of Islamic depredations and annexing Christian lands.
    Mr. Andrews. Was it offensive or defensive?
    Mr. Ibrahim. It depends on how you look at it. It was for 
Jerusalem and Jerusalem was annexed by force by Muslims from 
the Christian Byzantine Empire. By force. And so the crusaders 
were going to get it back. And so is that offensive or 
defensive?
    Mr. Andrews. Your testimony was terrific. Thank you very 
much.
    Mr. Ibrahim. Thank you.
    Mr. Smith. Mr. Shuster.
    Mr. Shuster. I thank you both for being here today. I am 
going to start with Mr. Doran first, and I have a question for 
you, Mr. Ibrahim.
    Our strategic communications counter ideology of al Qa'ida 
extremists out there in the U.S. Would you talk a little bit 
about that? What can we do better? You mentioned the U.S. 
Information Agency in establishing that. Can you sort of go 
into more detail as to what you think we should do, what you 
think we have done well, and what we haven't done well?
    Dr. Doran. Well, let me start with what we have done well.
    I think that in Iraq we have learned a lot of lessons. The 
successes with the tribes of al Anbar, this is a tremendous 
reversal, very quickly. And if you look at counterinsurgency 
doctrine that was used to--that informed our policies, our 
successful policies, you see that information operations and 
communications is a huge part of it.
    So what I am saying is when we see a success like that, 
obviously that is in an area where the Department of Defense 
has total control, what mechanism do we have in our government 
to look at successful programs and say, ah, how do we replicate 
this program in another part of the world, or how do we take it 
and maybe if we want to take it out of an area where we have a 
hot war to an area where the Department of Defense is not in 
the lead, how do we take it and massage it and change it so 
that we can apply it to these other areas?
    In order to do that, there has got to be a thinking, 
learning strategic center in the government that is looking at 
all of these different programs that are going on out in the 
field and adopting best practices and applying them, applying 
them elsewhere, and that currently doesn't exist. That is the 
problem.
    We got to the point under Glassman in the last 
administration where we could start to see what right looked 
like about how you would pull these things together. There were 
still--don't get me wrong--there were still lots of obstacles 
to creating a kind of the unified, all of government team that 
was working together. But we had a community of people from all 
the different key agencies who were working together, and we 
had a central locus where they could at least be brought 
together to discuss these issues, and that is what I think is 
sorely lacking.
    There are lots of things we are doing out there that are 
very effective. There is no doubt about that. The greatest sort 
of all of government cooperation that you see, the greatest 
example of it, is really at the country team level. If you have 
got an ambassador at the country team level who is interested 
in this, he has got all the representatives of the agencies 
right there, and they are coming up with innovative programs, 
that works very well.
    We have got a big broad interagency coordination at the NSC 
level, but that--all the kind of planning and operational 
cooperation at anything above the country team level is 
extremely difficult, and that needs--someone needs to, I think, 
not someone, the President has to focus on that, put somebody 
in charge of it, demand that they achieve results and then 
follow up on it.
    Mr. Shuster. And you place it at the State Department 
instead of NSC?
    Dr. Doran. I would. We have--there is a deep--throughout 
the government, there is a deep fear of an operational NSC, and 
there is something about the strategic communications influence 
that goes operational very quickly. So it is hard to run things 
like that out of the NSC. I think the NSC should be engaged in 
oversight and should be pulling the team together at various 
intervals, but there has got to be a strategic operational 
center.
    Also, it has to be resourced. I mean, things happen, you 
know, priorities change. You have to have an organization that 
has money, resources, that it can move to effect the 
perceptions of everybody else as well, and the NSC can't do 
that either.
    Mr. Shuster. Thank you, and then my final question which is 
going to be a big question, Mr. Ibrahim. Where is the hope? 
Your testimony sounds awfully bleak. Give me a piece that I can 
smile about.
    Mr. Ibrahim. No, I understand. I present all of this, and I 
understand that it doesn't offer much hope. But the reason I do 
it is to essentially show that there needs to be a radical 
shift in the intellectual approach to the problem.
    And I believe that if that is done, everything else will 
fall into play. And by saying that, I am not talking about, you 
know, an Armageddon-type war. I believe that once people start 
taking this seriously, then they will be able to implement 
something.
    For example, I am a firm believer that a lot of people 
always discuss interfaith dialogues and bringing Christians and 
Jews and Muslims together to talk about their commonalities. I 
think it is time to bring them together to talk about their 
differences and for them to be open, and for, you now, non-
Muslims--to essentially put Muslims in the hot seat and say, 
look, you have got this entire body of doctrine which is not 
ambiguous in the least. You have got all this history which 
essentially manifests that doctrine, and we know it. What is 
the deal, essentially. I mean, in other words, put the ball in 
their court.
    But as long as we go around saying, no, that is not the 
problem, and, you know, this and that, but to be objective, and 
not in a condescending or insulting way, and just simply say, 
look, you have got about a few thousand texts that you all say 
are authoritative from the Koran to the hadith to the words of 
Mohammed, to the words of the Islamic scholars, theologians and 
jurists, and they all say, X, Y and Z. Okay. Now, what is the 
deal. How do you--how can you tell us this is not the fact?
    I think by doing that one of the important things is they 
for the first time will see, you know what? These people 
actually have, you know, a reason to be the way they are or to 
be skeptical or to be cautious, and that goes back to saying a 
lot of Muslims don't even know their own texts. So by bringing 
it to them and throwing the ball in their court and showing 
them, your own religion teaches lots of violence and 
intolerance vis-a-vis the other and show us how that is not the 
case. I think that would go a long way into creating some sort 
of interreligious, on the international level debate, and that 
might help, for instance. But as long as we ignore it----
    Mr. Smith. The time is up. We have to go on. Move on to Mr. 
Cooper.
    Mr. Cooper. Thank you, Mr. Chairman. Thanks to the 
distinguished witnesses.
    It is my understanding that one of our admirals has said 
the most single successful war on terror was tsunami relief in 
Indonesia, humanitarian aid, temporary involvement, relief, 
that worked.
    Meanwhile, in other parts of the world we have been engaged 
over the last 20 years in rebuilding, what, 6 Muslim nations 
and almost no gratitude, in fact a lot of hostility provoked. 
No understanding in the Arab street that we are helping these 
folks, even though in Iraq and Afghanistan alone, just in 
existing outlays, we have paid, we would have hired every man, 
woman and child in both countries for about 40 years.
    So in terms of an effective strategy to reach out to folks, 
don't we kind of need to bypass ideology, deal with 
humanitarian and time limited and nongeographic, and that seems 
to work if recent history is any guide, sidestep these 
doctrinal issues.
    Yes, sir. Mr. Doran.
    Dr. Doran. If I could just say a couple of words about the 
doctrinal issues, I disagree with Mr. Ibrahim on a couple of 
key points. He mentioned the words, that ``words'' memo. I 
actually was very supportive of that memo and pushed it around 
that government as much as possible.
    What we found in extensive polling was that when Americans 
talk about Islam, use Islamic terminology, there is what we say 
and then there is what Muslim audiences hear. It is one of 
those cases where the minute we use Muslim terminology 
audiences turn off and they hear, ah, you have got a problem 
with Islam. It is very much what you were saying, Mr. Chairman.
    Mr. Smith. And I tried that from a dozen different 
understanding angles with a bunch of different audiences, and I 
discovered exactly what you just said.
    Dr. Doran. Yes. Any time you talk to Muslim audiences you 
have that experience.
    Mr. Smith. Well, you are a non-Muslim presuming to 
understand their religion, and they are offended by that at 
first blush.
    But go ahead, sorry.
    Dr. Doran. Yes. It has the unintended consequence of 
validating al Qa'ida's ideology which says that the United 
States is at war with Islam. So we just find it more effective 
that we talk about, we talk about interests, we talk about--we 
talk to people in terms of categories of identity, like tribes 
of al Anbar, Iraqis, and so on, that doesn't put the religious 
question forward.
    It is one of those old things like the old question about, 
you know, when President Nixon said, I am not a crook, you 
know. When you deny the frame, you reinforce the frame.
    So what people don't hear I am not a crook, they hear 
``crook.''
    So we sort of want to change the dialogue and get it off of 
religion. That is not an argument about--that is not an 
argument about theology and. It is saying, let's, to the 
extent--to the extent that we have any control over the tenor 
and the subject matter, let's move it off of the theological.
    And I would still stand by that. I think it is quite a good 
idea.
    On the tsunami relief, the question is what is our 
strategic goal in all of this, and that goes to what I was 
saying about the State ``R'' and the telling America's story. 
We have an interest out there in seeing to it that certain 
ideologies are weakened. What people think about the United 
States is not always the primary--and I would say that is 
usually not the primary factor that is going to weaken or 
strengthen those ideologies.
    So, yes, we do want people to have a good view of the 
United States, and we want to carry out actions that they find 
completely compatible with their own interests. But we have--
there are groups out there that we want to strengthen, there 
are groups that we want to weaken, and we need an information 
system, we need an influence system that can target those 
enemies and create information flows that weaken them, and that 
doesn't necessarily have to do--those information flows don't 
necessarily have anything to do with the United States and its 
actions.
    Mr. Cooper. Well, the most effective information flow might 
be medicine or a new American President whose middle name is 
Hussein or avenues like that that kind of diffuse the 
controversy. Is there a more failed position in all the Federal 
Government than the ``R'' Bureau, if we look at all the 
mismanagement and ineptitude?
    Dr. Doran. No, I don't think the ``R'' Bureau is a failed 
bureau. I think the problem isn't--the problem is one of 
leadership.
    Mr. Cooper. There been about 12 leaders in recent years. 
Even I can remember Charlotte Beers.
    Dr. Doran. No. The ``R'' Bureau has had, I think it is four 
in the last eight. But if you look at it--I don't have the 
numbers in front of me, but if you look at it about half the 
time there has been no leadership there.
    So the position has been, the under secretary's position 
has been empty quite a lot. When I say leadership, it really 
has to come from the top.
    There has to--you have to--the White House has to decide 
that it wants to create the all of government team, and then it 
has to put somebody in charge of creating the team and demand 
results. We haven't had that. We haven't had that yet.
    There are huge--all of the communities that are--even the 
communities within the Department of Defense that are tasked 
with influence and information were carrying out a radically 
different kind of role before 9/11. So we have suddenly taken 
what are basically tactical communities or communities that 
were directed toward mission X and we suddenly said, aha, you 
have this strategic communications mission. But we haven't 
stepped back and said how do we need to revamp all of this in 
order to pull it together for all of that mission.
    Mr. Smith. I am going to pause on that, and we will revisit 
that issue.
    Mr. Ibrahim. May I also briefly respond to the ``words 
matter''?
    Mr. Smith. Very quickly, go ahead.
    Mr. Ibrahim. About this whole ``words matter'' memo, the 
points that I would like to stress, first of all, is, like I 
said, I don't think the kinds of words we use are going to 
either estrange Muslims or win them over, but I do think they 
need to be used carefully. And this goes back to what I am 
saying about learning and getting a better doctrinal education 
of what these words mean, and then using them properly.
    So, for example, I remember in that memo words like 
``Sharia'' were not supposed to be mentioned, words like 
``caliphate'' were not supposed to be mentioned, even words 
like ``ummah.'' Now, as long as they are being mentioned in a 
context that is applicable and legitimate, I don't see why a 
Muslim would be so estranged by that.
    On the other hand, like I am saying, whatever words we use 
I don't think are going to make a dramatic difference there, 
but I do think they make a dramatic difference here in the 
U.S., because if we do away with all these words which carry so 
much meaning and then instead just supplant generic words, then 
the people who talk who need to know what is going on won't 
have the necessary knowledge because it is a generic concept.
    Mr. Smith. I think we are talking about two slightly 
different things, which I will explore in a minute. But I want 
to get to Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman.
    Mr. Doran, I have always believed the first step is to 
really understand not only the enemy, but the culture, the 
religion, that we are dealing with. You have been in at least 
three different positions. How would you rate today our 
government's understanding of what we are facing of the 
religious background that has been discussed here, as well as 
the culture, the tribes, and so forth, when you deal with 
various countries?
    Dr. Doran. I think that the understanding has increased 
exponentially.
    Mr. Thornberry. I know it is better, but on a scale of one 
to ten, where are we?
    Dr. Doran. You see, you're asking me to have perfect 
knowledge. I would say 7.5. If you look at the quality of 
analyses about the Fatah, I watched as it got better and better 
and better, so that we understood down to the tribal level the 
motivations of individuals, motivations of the tribes.
    The intersection, one of the important things--and this is 
another area where I disagree a little bit with Mr. Ibrahim. 
The problem we have got is, we have people who are motivated by 
the ideology, who believe the theology as understood by al 
Qa'ida; and then we have other groups that ally with them for 
reasons of their own self-interest, who calculate for whatever 
reason that they benefit from the violence of these guys. You 
saw this in Iraq.
    So our job is to separate out, to drive a wedge between the 
global jihadis and the others who are aligning with them for 
whatever reason. But more and more I see that we understand 
that better.
    Mr. Thornberry. But you have to have that deeper 
understanding in order to have effective strategic 
communications, in order to drive that wedge and separate them 
off.
    In your comments at the beginning you made a comment about 
having the ``R'' Bureau kind of the leader where the government 
comes together. One of the concerns I have had is that too 
often strategic communications is an overlay to what we are 
doing rather than a part of the strategy from the beginning, an 
integrated part of the strategy, so that rather than spin some 
sort of kinetic operation to make it look as good as it could, 
maybe you shouldn't do it at all because of the implications of 
it.
    Can an ``R'' Bureau or anything else integrate strategic 
communication into the planning of what we do, not just try to 
spin it after it is already done?
    Dr. Doran. That is a huge problem. It is a huge problem in 
terms of military operations, it is a huge problem in terms of 
policy.
    The key isn't ``R'' Bureau; the key is a strategic 
proponent for all of this. The under secretary of ``R'' that I 
am talking about would be a much different ``R''. You would 
shift the balance between the regional bureaus and the ``R'' 
Bureau, and you would have an empowered under secretary with 
access to the President. So you would have an individual there 
at all of the key meetings who would be reminding everybody 
that they need to think about the effect of our actions on 
perceptions out there first. That is the only way I can think 
about doing it.
    I always come back to the organizational piece and to the 
creation of a powerful proponent in the government who can make 
all of these arguments. Absent that, I don't know how we do it.
    Mr. Thornberry. When Secretary Gates was before the full 
committee a week or two ago, I asked him about an incident, 
just as an example, where there was a firefight in Iraq. Before 
our guys got back to the base they had rearranged the bodies to 
make it look like our soldiers had shot Muslims as they were 
praying. This was on the Internet, and we didn't respond for a 
week.
    So part of what you are talking about, isn't it speed of 
making decisions? It can't come under Washington and be 
thrashed out at any level; you have got to be fast, and you 
have got to have tactical control over that or else a tactical 
operation becomes a strategic issue. Is that not part of what 
we are dealing with?
    Dr. Doran. Yes, absolutely. And let me give you some grist 
for your mill.
    We have an enormous amount of combat camera footage that 
can show what we are doing, but it is very hard to get all of 
that declassified. Once things go into intel channels, they get 
locked away. And because we don't have a powerful proponent 
saying from the beginning--look, the enemy's narrative, it is 
pretty easy to see, it is you are killing babies, you are 
killing innocents, that is their narrative, it is as simple as 
that.
    So we know from the outset, no matter what we do, that is 
what is going to be claimed against the U.S. So we have to say, 
what is the counter story that we are telling?
    Right now, the counter story we are telling is, Oh, we did 
that by accident, or, We don't know; we'll get back to you in 
two weeks. That doesn't work. But--knowing the counter story is 
one thing, but then setting up the processes to make sure that 
we have the information going out immediately that supports our 
narrative is what is lacking.
    Mr. Smith. I want to follow up on that, because I am 
totally with you and Mr. Thornberry on the need for the 
strategic approach and how we organize it and coordinate it and 
the fact that that is, I think, really what we have been 
lacking in the last six or seven years in a comprehensive 
approach to defeating these violent ideologies.
    And it is not a war on terrorism--I think it is important 
we understand that--it is a war of the ideology that Mr. 
Ibrahim has described, and how are we comprehensively trying to 
counteract that down to the tactical level, like the example 
that Mac mentioned, up to the strategic level of what our 
message should be and we don't have any sort of comprehensive 
strategy. And I am with you on that.
    Where I part ways and what I want to explore is with the 
notion that the Under Secretary for Public Diplomacy should be 
the person to lead this effort. Lots of arguments here. The 
first one is that is what we have been trying for the last six 
years or so, and it is been a complete failure in terms of any 
sort of broad strategic planning.
    Second, under secretaries do not, almost by definition, 
have access to the President. They just don't, because their 
most direct boss wouldn't want that to happen. So if we imagine 
that we are going to create an under secretary position that is 
going to have access to the President, then I think that is 
just a very faulty premise from the start.
    All of which is a long way around to my thinking that the 
NSC is where this has to be, because the National Security 
Adviser does have access to the President. Most specifically, 
also within the current NSC there is a gentleman on the NSC 
staff who has access to the President, had access to him for 
two years, who has been charged in this general area amongst 
others; and that the only way to get sort of the comprehensive 
approach is to put that responsibility there. Because even if 
we fix the problem that you mentioned within Public Diplomacy, 
which is the fact that they went regional--even if you do that, 
all that does is that unifies State.
    The comprehensive strategy that we are talking about 
requires many different agencies to do that. I mean, we could 
tick through all of them. And State is just not going to have 
that type of influence over it.
    With that, I apologize, I got riled up by Mr. Thornberry's 
question there, and I wanted to explore that.
    I will let you respond, and then I have got to go to Mr. 
Langevin.
    Dr. Doran. Couple of points: First of all, NSC has to be 
deeply engaged, there is no doubt about that. My point is, 
there has to be a strategic operational center, somebody who is 
following day to day what is going on on the ground, moving 
resources from here to there and so on.
    Mr. Smith. Across agency lines.
    Dr. Doran. Yes. It doesn't necessarily--now, because of the 
Economy Act, you can't move resources across, but you can----
    Mr. Smith. You can talk to them.
    Dr. Doran. You can talk to them and you can say, Hey, you 
are doing X, I am doing Y, and our friends over here are doing 
Z. According to your authorities, couldn't you actually do Y?
    And they can say, Yes, we can do that.
    And then that frees me up to take the money from Y and put 
it somewhere else.
    Now, we got to that stage under Jim Glassman. That is the 
first time that ever happened, where we all sat in a room and 
said, Here is the goal we want to achieve in region X, here is 
what we are doing; and we started horse trading like that. That 
is the first time it ever happened. That kind of thing has to 
go on.
    Ultimately, as I said in the beginning, to me, all roads 
lead to the State Department because they have the lead for 
foreign policy, they are out there putting together our 
strategy in every other realm. And so they have got to be 
deeply involved from the----
    Mr. Smith. They have to be deeply involved. And I will 
exercise my prerogative to take the last word, though I will 
revisit this in a second to say that all roads do not lead to 
the State Department in this issue because there is a huge 
military component to it, there is a huge intelligence 
component to it.
    So the roads do lead in slightly different directions. And 
I will let you stew on that for a second and you can come back 
at me in five minutes.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. This has certainly 
been a fascinating discussion.
    I really do thank you for your testimony, to both our 
gentlemen here today.
    Let me ask you this: In terms of how we do communicate, and 
not wanting to enflame the situation making it any worse--I 
mean, we all speak to various groups, and when we speak about 
this issue, how do we speak about it in such a way that we 
refer to the terrorists, who and what they are, but not, you 
know, communicate in such a way that we offend those people in 
the Muslim world with whom we need to align, people that do 
want peace and that we need to work with against those people 
who want to cause death and violence?
    Let me stop there, and then I will go to my other 
questions.
    Mr. Ibrahim. So how do we speak? You mean to the more 
moderate elements without alienating, how do we utilize words?
    Mr. Langevin. Right. How do we let them know that we have 
no conflict or issue with Islam, but we do have a problem with 
violent terrorists?
    Mr. Ibrahim. Well, I think you just more or less--the way 
you put it. You can say, we, per se, have no conflict or issues 
with Islam, but we have these terrorists who go around quoting 
from your core texts and who reveal, usually, a greater 
appreciation--a lot of these terrorists are usually top 
graduates from theological schools. And so the question would 
be, we are not out to have a crusade or anything against you, 
but your guys are saying that this is what your religion 
teaches.
    And that is why I am saying to have a real debate without--
I will give you an example of where debates normally end. 
Someone will say, well, the Koran has verse X, Y and Z which 
says, Go and fight infidels. And then the person, whoever it is 
who would respond, will say, yes, but also the Koran says, Live 
in peace, and this and that, and so it is open to 
interpretation.
    But what most people don't know is that, again going back 
to the juridical roots of Sharia law, a system was created, 
which is called abrogation, which means basically any time in 
the Koran there is a statement that contradicts the other--and 
there are many--for example, live in peace with your neighbors, 
go and subjugate them--the rule of thumb is always, you go with 
what was revealed to Mohammed later.
    And so--when you look at the Koran, the vast majority of 
the most violent verses were the ones revealed to him later, 
and so, according to Islamic theologians, they have abrogated 
the more peaceful ones.
    So my point is, not to sit there and say, Well, you have 
violent verses, and they say, Well, we have peaceful ones. And 
then we say, Oh, okay, it is open to interpretation. Take it to 
a further scholarly level and introduce this concept and kind 
of tell them this is where you are going.
    So all I am saying is to actually bring it out into the 
open without being offensive, and just, from an inquisitive 
point of view, saying, We have been studying your own 
scriptures, your own top authorities, and this is what they are 
telling us. And then when you say, a moderate response, this is 
also how they come back--and also from a doctrinal point of 
view--so how are we supposed to understand?
    Now I think that would go a long way, if for no other 
reason than showing Muslims that, Hey, our own religion does 
have these issues, and maybe we need to start addressing them, 
as opposed to ignoring them and going out of our way to tell 
them, oh, it is a matter of misinterpretation; and then no one 
wants to address it.
    Mr. Langevin. I want to go to Mr. Doran in just a minute. 
But getting back to Mr. Shuster's question, where is the hope 
and where do you see this going? What is the ultimate ending? 
Because it is pretty depressing.
    Mr. Ibrahim. It is depressing.
    Mr. Langevin. It would be great if in small groups we could 
sit down with 1.5 billion people, the billions of people in the 
world on both sides and try to work this out, but it ain't 
gonna happen.
    So what is the end game?
    Mr. Ibrahim. It is depressing. It is almost--and I am not 
at all trying to liken Islam to, you know, Nazism or anything 
like that, but if I were to come and say Nazism, Hitler believe 
X, Y and Z, so what is the hope? How do you deal with that? 
Sometimes there really isn't.
    But I do believe there is hope, which is not going to be 
mass war or anything like that, and the hope lies in exposing 
the truth and making the truth available for all parties to 
address and to talk about without political correctness or any 
other kind of intellectual restraints, but just objectively 
address these issues and bring them out in the forefront. And 
that has not happened; that is the whole thing.
    So you have a group, the radicals, who believe this, who 
are gaining recruits because they make very strong arguments 
based again on doctrine. Then you have, on the other side, the 
West, or the Americans, who are going out of their way to 
ignore that and say, That is not part of it. So I am saying to 
actually say, Okay, this is part of it.
    This is your argument. Now we want to ask moderate Muslims 
to actually explain to us all of this and have them go to a 
moderate Muslim and say, Your religion unequivocally 
demonstrates, according to all these sources and all these 
scholars, that when you can, you should go on the offensive. 
What are we going to do about that? How do you propose--and 
when they say, Oh, no, it is a matter of interpretation.
    It can't end there because, like I said, there are a lot of 
different means and methods of jurisprudence which have already 
addressed these things, and so it is not open to 
interpretation; and then that has to be brought up.
    And then, when the ball is in their court, I think a lot of 
Muslims will, a, see, you know, these people have a point; we 
need to actually start addressing this. And I think that would 
actually result in a good thing, not necessarily some kind of 
Armageddon war. But as long as no one is addressing the fact 
and we are ignoring it, I think it just gets worse and it gets 
bigger.
    And I understand that is not exactly the most hopeful 
response.
    Mr. Smith. And I want to touch a little bit more on that in 
a second, but I want to give Mr. Doran a chance to talk a 
little bit more about who should be in charge of the strategy 
and how we do the interagency piece and all the different 
elements, put together all of our resources so that they are 
coordinated.
    Dr. Doran. With regard to the things that you left me to 
stew about, the NSC is often a recipe for gridlock, and I think 
that is important to see. When you elevate things up to that 
level, they become intertwined with the high political debates.
    I saw very well, when I was at the NSC, anything to do with 
Iran, the most mundane things to do with Iran, would become 
proxies for policy arguments. And I think that we have seen it 
in the Pentagon, as well, when we grapple with the whole 
question of strategic communication within the Pentagon.
    There has been a very clear pattern in the Pentagon since 
2003 to push the communications authorities down out into the 
field because there was a recognition that these debates about 
what we should be messaging, they interact with policy debates 
in a way that is very unhealthy; and they also interact with 
turf issues in Washington that is very unhealthy. You get down 
to the country team level, and you--I was just out in 
Afghanistan recently. And the interaction between Department of 
Defense (DOD) Public Affairs, DOD Information Operations, and 
the State Department Public Diplomacy people on the ground in 
Afghanistan is absolutely exemplary. And you look at that and 
you think, what kind of organization do we need back in 
Washington that can support those kinds of efforts that are 
going on out the field, learn from them, have two-way 
communications (coms) with them, and expand them when they are 
successful?
    Up at the NSC, it is all about high policy, so it is kind 
of counterintuitive. The minute you put something in the White 
House, you think you are going to get a quick turn on it. Well, 
often it sits there for six, eight months and goes absolutely 
nowhere.
    So we have got to find a way to push the authorities out 
into the field, but have two-way coms with Washington. That is 
why I go back to strategic operational.
    Mr. Smith. Well, I would agree with that. And I think 
ultimately the model--and from all the people that I have 
talked to, you know, one of the centerpieces of all of this is 
going to be the country team, and it is going to be the State 
Department and it is going to be the ambassador in the various 
different places where we are engaged in this. And I think that 
is absolutely true.
    We need to do a better job of empowering them though. You 
are right, we have taken steps in that direction. But on the 
sort of big picture meta-approach to what we are doing, all of 
the players on the national level are going to feed into that--
what the Secretary of Defense says, what the Secretary of State 
says, what the NSC says, the President, the Vice President.
    There has got to be sort of a strategic top line, Okay, 
here is what this country team is doing in Nigeria and here is 
what they are doing in Pakistan and the Philippines; and we 
want them to do this. Someone has got to sort of develop that 
and send it out on that level and resource it.
    Dr. Doran. Right. Those top-line messages, that is 
absolutely the NSC's business, and they absolutely need to be 
focused on that and engaged with the operational elements. But 
putting the lead for the operational bid in the NSC, I think, 
is where it starts to go wrong. You then get guys at the very 
top level who----
    Mr. Smith. I get what you are saying. I don't want to 
interrupt you, but I think you are going to repeat what you 
said earlier. And I understand that, if they get caught up in 
those sorts of debates.
    What I am most concerned about is the interagency approach, 
to basically make sure that all of the people in this very 
complicated flow chart are understood by somebody.
    I mean, the way we are doing this is like we are playing a 
football game and the coach has half the players out in the 
field that aren't getting any message from him; and they are 
doing stuff, they may be talented, they may be important, but 
they are not part of the overall plan.
    Now, obviously this is more complicated, even than 
football, because you have more than 11 people on the field at 
the time--it is in the dozens, if not the hundreds, when you 
think about all the different agencies and all the different 
resources. But somebody in this whole operation, somebody 
really smart and with good experience, has to understand that 
entire playing field, has to have in their mind, Okay, we have 
got this problem, and you know what? Gosh, we need the national 
geospatial folks involved on this piece--I am going obscure 
there, but that is what I mean--because right now we are 
missing pieces of that.
    Or also, some of those pieces are off running their own 
play, running their own program, and there is nobody really to 
control them.
    And if it can be the Under Secretary for Public Diplomacy, 
I guess that is okay. It is hard. And I have seen it work 
before where somebody within one branch was able to do the 
interagency piece with, you know, Presidential authority, and 
pull folks together.
    It has worked, so I guess it is conceivable. I could be 
persuaded of that. But whoever it is, that division we have to 
have; it can't just be country team by country team or State 
Department piece or this piece. It is got to be someone who 
says, Here is everything that we have at our disposal to win 
this battle, and we all, to some degree, have got to keep them 
on the same page. That is what we are trying to accomplish.
    Dr. Doran. It is incredibly difficult.
    You know, we also need to develop mechanisms for cross-
agency cooperation--beyond just the leadership, mechanisms that 
are new. So we need leadership from the top to say, Hey, we are 
entering into a whole new government era.
    Mr. Smith. Goldwater-Nichols.
    Dr. Doran. Yes. We need the equivalent of that. It doesn't 
necessarily have to be new legislation, but there has to be a 
really strong demand for getting this from the top.
    Mr. Smith. Sure. I think it shouldn't be new legislation. I 
think it should be exactly what you just said.
    I have a couple more things for Mr. Ibrahim, but I want to 
turn it over to Mr. Thornberry.
    Mr. Thornberry. Following on that, have you looked, Mr. 
Doran, at the National Counterterrorism Center (NCTC) as a 
possible example? You know, one of the commissions recommended 
that the NCTC have operational planning authority. It didn't 
end up with that, but is that maybe another model to at least 
consider?
    Dr. Doran. Yes. Well, we developed, under Glassman, a 
hybrid where one of the things that he did--as I said, he 
distinguished--his predecessors saw the job as a public 
relations (PR) job, he saw it as a national security position. 
And one of the things that he did is, he worked closely with 
the NCTC.
    The problem with the NCTC is that it is working on 
counterterrorism. And the problem--which is fine as long as we 
are on a hard terrorist messaging issue, but a lot of the 
issues that we need to confront are where the policies of peer 
competitors, strategic rivals--Iran.
    Mr. Thornberry. The NCTC for strategic communication----
    Dr. Doran. Yes. I think we are all in agreement of what is 
missing.
    There are lots of problems with the ``R'' model that I laid 
out. The reason I went for the ``R'' model is for two basic 
reasons: Number one, State Department has got to be a major 
player; we have got to bring them on board. And number two, I 
just don't see creating a new agency at this point.
    Mr. Thornberry. Let me ask you one other thing--and we may 
have talked about this before.
    Do you see a role for private sector input into whatever is 
created? And I harken back to a Defense Science Board study 
several years ago that said there is lots of expertise out 
there in the country that can be brought to bear and taken 
advantage of, but there is no way for them to plug in at this 
point.
    Dr. Doran. That is another area where I am in 100 percent 
agreement with you. The private sector has an enormous amount 
to offer on many different levels. But at the risk of really 
sounding like a broken record, without the strategic center to 
plug in, we can't tap into it appropriately. So I don't think 
it is an alternative. It is another arm that we need to be 
using.
    In my written statement I made reference to a book by 
Kenneth Osgood about--Total Cold War about the Eisenhower era. 
And it turns out that Eisenhower understood all of this, set up 
the government to deliver it, including outreach to the private 
sector.
    I don't think we need to go back exactly to the Eisenhower 
model for a lot of reasons, but it is great to hold up and say, 
Hey, we did this once; we can do it again.
    Mr. Thornberry. Finally, Mr. Ibrahim, how much of this is a 
struggle within Islam that we have no influence over, no 
influence to sway one way or another? And then how much room is 
there for us to have some positive influence if we do 
everything perfectly?
    Mr. Ibrahim. Right. I think there is a legitimate struggle 
within Islam over these interpretations. I have, of course, 
indicated the difficulties that reformers will encounter.
    Insofar as how we can help? Very little, or at least not 
visibly, because the moment you have a non-Muslim, specifically 
an American, trying to reinterpret Islam for Muslims or even 
visibly supporting moderate Muslims, they are immediately just 
completely discounted as just being puppets.
    So there is, I think, a debate. If you want to do it in the 
literal sense, the literalists kind of have an advantage 
because it is a traditional thing, and they have the law on 
their side. But if we can help, perhaps if it can be done 
clandestinely or behind the scenes by supporting this sort of 
thing, but once the U.S. or the West is visible, they lose 
credibility.
    Mr. Smith. Thank you, Jim.
    I have a couple more questions, but I want to give Mr. 
Langevin another shot. I know you had some follow-up that I 
think we ran out of time on.
    Mr. Langevin. I did. Thank you, Mr. Chairman.
    Dr. Joe Nye, the former Dean of the Kennedy School of 
Government and former Assistant Secretary of Defense for 
International Security, has written extensively about the need 
to supplement our military might with soft-power assets, if you 
will, efforts to win the world's hearts and minds with our 
values and culture, successfully exercising the type of power 
that requires that we pursue many fronts, including 
international diplomacy, democracy building, culture exchanges, 
economic development, education initiatives, communication 
about our values and our ideals. And while we won't be able to 
influence that hard-core center, like the bin Ladens of the 
world, we may be able to reach out to those gray circles that 
are outside of that.
    So, Mr. Ibrahim, do you believe that it is possible to 
reach out to those gray areas and, with soft-power assets, have 
an influence in at least dissuading people from going toward 
that hard-core center?
    Mr. Ibrahim. I do believe that. I think one of the 
conceptual differences that we have when we talk is that I am 
often looking at the long term, and I think in the long term it 
is always going to be a problem.
    In the short term, what you say makes sense, and that can 
be done by reaching out and strengthening and all that. But, 
see, I always try to think as a Muslim. I have come from the 
Middle East and I know the mindset. And when you think as a 
Muslim, that means a different paradigm completely from what we 
are accustomed to doing or thinking about the world view.
    And so, when you are left with--and again, I stress, by 
``Muslim,'' I don't mean one billion people; I mean the people 
who literally, by the word ``Muslim,'' have submitted 
themselves to this codified world view.
    And so, to me, I just don't understand how, if you believe 
God told you X, Y and Z--this is not open to interpretation, 
this is how it has been done for 1,400 years--how a person can 
get beyond that. Now, usually most people get beyond that by 
actually deflecting out of Muslim and becoming moderates, which 
is really secular Muslims, which--that obviously helps, too.
    So in the long term, I don't know how strategic these are. 
In the short term, they can help and they can make differences, 
but as long as that codified world view exists, it is always 
going to come back. And I think one of the problems is, people 
overlook history, and they often just start looking at the 
Islamic world and its interaction with the West, Europe and 
America, from the last 200 years. And they just see it always 
as the West on the offensive with colonialism and with all 
these sorts of things, but they don't appreciate the earlier 
history.
    And the fact is that when Islam was strong, from the 
beginning it did implement these doctrines, so it was always 
there until, if you look at it from the seventh century until 
the Ottoman Empire, which annexed a big chunk of Eastern Europe 
by the jihads--and that is how it was explained; again, in 
Ottoman documents, that is the way it was, that is the norm 
until they got beaten.
    So I think an intellectual or conceptual failure is 
people--and they often tell me, if what you are saying is true, 
how come in the last 200-300 years we haven't seen Muslims en 
masse invading and waging jihad. And the fact is, in the last 
200-300 years, there has been a great disparity between what 
the Muslim world can do vis-a-vis the West. And so just because 
they have not been implementing these doctrines does not mean 
that they have annulled them and overlooked them; it can't be 
done anyway.
    But that is the problem. People think, Well, if anyone has 
been the aggressor in the last 300 years, it is the West. And 
so they are not taking the historical context and the 
capability factor into play.
    Mr. Langevin. Thank you.
    Mr. Doran, in your testimony you conclude that interagency 
coordination is really a necessary step in combating extremist 
ideologies. One of the things that I have called for--and Mr. 
Thornberry and I have cosponsored legislation calling for a 
quadrennial national security, very similar to the Defense 
Department's Quadrennial Defense Review (QDR), but it would 
require that cross-agency cooperation in developing the 
strategy as we go forward to better inform the national 
security strategy.
    Do you think something like that would work, should work; 
and how do we best implement it?
    Dr. Doran. Demand signal coming from Congress to the 
agencies to pull together and think about these problems in a 
common fashion is always a good thing.
    But in terms of the thing that is most important, I think 
here in the discussion we are all in agreement that 
institutionally there is something missing. It is all of the 
connective tissue that can pull all of these different teams 
together; and that is where I would put the emphasis, is 
demanding from the various agencies that they set up the 
different nodes that will pull it all together, and that the 
leadership will demand of the people who are in charge of this 
that they do so.
    Mr. Smith. If I could pick up on the conversation, Mr. 
Ibrahim, about how we deal with the doctrinal issues--and I 
think you very correctly identified the problem, and I think 
the problem does exist to some degree in other religions. In 
the Jewish religion, while it is more specific, that is 
certainly one of the problems they are having in Israel; you 
know, the strict interpretation is, here is the land that we 
are supposed to have. And there is some percentage of the 
Jewish population that adheres to that. Most of them do not. 
But that, too, creates a problem; it is in the Bible, it is 
what we have to do.
    Of course, where the Bible is concerned, there are a whole 
lot of things to adhere to in there, the whole shellfish--on 
down the line, a whole bunch of rules that don't seem to have 
much modern applicability.
    And then, of course, within the Catholic religion, well, 
they have no end of rules. And adjustments have been made and 
we have gone through those battles in the U.S., Well, you are 
not a good Catholic if you don't follow all the rules. And 
there are a lot of Catholics who have said, Yeah, but a lot of 
those rules were kind of made by man. So there was a doctrinal 
defense there.
    And that is sort of, as you describe, and I think 
accurately, where the Muslim world is at.
    There has to be an interpretation of their religion that 
gets around some of their doctrinal challenges. And I think you 
are right in confronting that and having, you know, within the 
Muslim world, a conversation that comes up with that.
    I want to explore one piece of that, and then I have two 
other areas. So let's walk down that road for a moment.
    If you are a Muslim, it seems to me that there isn't any 
other way to do that other than to sort of--I am a Christian, 
and my own interpretation of the religion is that God wants us 
to think in advance, that there was no one time at any point in 
human history when it was all written down, and all we have to 
do is memorize it like a calculus test and then we are good to 
go. That is completely antithetical to human experience to me, 
that what God wants us to do is think and reason and move 
forward and understand the broader world and its context, not 
go back to some math problem. And as you can tell from my tone, 
I feel very strongly about that.
    Whatever your religion, it is hard for me to imagine going 
in the other direction. It just doesn't make sense based on 
human experience.
    But be that as it may, there is another way to go, and that 
is, Look, it is black and white; you know, we have got big 
problems in the world, and the only reason we have problems in 
the world is because we didn't adhere to that black and white. 
And that comes into problems certainly within the Jewish 
religion. In the Christian religion, as well, you will find 
many people who say that. And of course they have a fairly 
wide-ranging difference of exactly what it is that we are 
supposed to be doing exactly, what laws we are supposed to be 
following.
    But as you describe, within the Muslim religion the Koran 
is relatively straightforward and relatively interpretive. So 
if you go down that road, if you put yourself in the Muslim 
shoes for a moment, just for the purpose of this room--
accepting your argument that we should never do that publicly--
what do you do?
    How do you make an argument that, you know, well, this is 
the moderate approach, and with the key cornerstone of that 
being other people can have different faiths and we can live 
with them and it is all good, we don't have to be focused on 
everybody converting to our way of thought? How would they sort 
of confront that doctrinal problem in the straightforward, 
honest, up-front way that you have described?
    Mr. Ibrahim. Well, I have seen moderate Muslims posit that 
approach that you just mentioned; and the radical response is 
always the same, which is----
    Mr. Smith. I know what the radical response would be, you 
have been clear on that.
    What I am searching for is, how you then counter that 
radical response and when?
    Mr. Ibrahim. Well, that is the difficult part----
    Mr. Smith. That is why I am asking.
    Mr. Ibrahim [continuing]. Because ultimately we are talking 
about a religion, we are talking about truths. This is how it 
is understood; and we have to always remember, whatever we may 
think Islam is, to Muslims this is the internal truth.
    And so I am a Muslim, and I have, like you were saying, X, 
Y and Z, black and white, codified, been practiced that way 
always. And then I get someone who says, Well, we need to 
reform this because it is the 21st century; we want to get 
along with people. And then they go and just give you a big 
list of how the Prophet Mohammed would not do that, how Prophet 
Mohammed subjugated people out.
    And so that is the problem, this is the fundamental 
problem. I know you want to see how to get over that, and that 
is why people haven't been able to get over that at this point.
    And then again you have Sufis----
    Mr. Smith. Well, that is the other thing. I mean, the other 
thing about this that I think--if I may help answer my own 
question--one of the ways to get around that is, it is not 
really as doctrinally black as white as you described it.
    For instance, at one point when you mentioned that, well, 
from the 7th century to the 16th they adhered to these rules, 
and it was all good. No, they didn't; they adhered to some of 
them. They were drinking; they weren't doing for the poor what 
they were supposed to be doing.
    If you go back and read that history, there is simply no 
way that from the 7th century to the 16th century they came 
within a country mile of adhering to everything that was in the 
Koran.
    Mr. Ibrahim. But that was the rule. That is sort of like us 
saying we have a Constitution, but we break it.
    Mr. Smith. Understood.
    But understand that there is a critical point that I am 
making there, because a critical part of the argument that 
carries the day for the radicals in the Muslim world is, when 
we were doing it right, we were ruling the world.
    Mr. Ibrahim. Exactly.
    Mr. Smith. But we abandoned it. But that is crap.
    Mr. Ibrahim. From your perspective.
    Mr. Smith. No, no, no, no, no. We are off perspective now.
    It is--I will use a different word as I describe this, but 
it is factually, incontrovertibly untrue. In the same way that 
your doctrinal argument about what the Koran says is 
absolutely, factually true, it is untrue to say that from the 
7th to the 16th century they adhered to the Koran. They did 
not. And you don't have to be very smart to prove that. It is 
just a matter of historical fact.
    Mr. Ibrahim. I was specifically discussing the obligation 
of jihad, and that is why Islam was able to spread from the 
Arabian Peninsula to Spain and India in about a century.
    Mr. Smith. Understood.
    But you can't cherry-pick. That is the whole point. That is 
what you are saying is the strongest argument that bin Laden 
and those guys had is, you can't cherry-pick, and you just did.
    Mr. Ibrahim. Cherry-pick in what sense?
    Mr. Smith. Well, you said we followed jihad, but we didn't 
follow all the other stuff in the Koran.
    Mr. Ibrahim. Right.
    Mr. Smith. It is a package deal, as bin Laden describes it. 
So I think we can make that argument and say that, no, it was 
not followed and it did not lead to the successes as they 
describe.
    Mr. Ibrahim. Fair enough.
    But to them there is this Golden Age myth, which is 
basically the era of Mohammed and how we lived, which--we have 
a lot of documents; that is what we need to follow.
    Mr. Smith. And all I am saying is we can factually 
contradict that myth.
    Mr. Ibrahim. And that would be a good strategy. If people 
actually actively and in a scholarly way went to prove that 
that was wrong, I believe that would be a good strategic point 
to try to do that. But, then again, coming from Westerners----
    Mr. Smith. Oh, I am not saying that should come from us. 
Absolutely, it shouldn't come from us.
    Mr. Ibrahim. Okay. Because if it does, it is just 
conspiracy and----
    Mr. Smith. Within the Muslim world, we have to be aware of 
this. Per your own argument, we have to be aware of what the 
best doctrinal argument is to go. Because the other thing that 
is possible is that if the doctrine just sort of ties us up in 
knots, then you might conceivably be better off not confronting 
these hard truths, and relying on the argument that there are 
things in the Koran that talk about peace and, therefore, that 
is the direction we need to go in.
    Mr. Ibrahim. But like I said, to them--see, this is the 
problem. To non-Muslims, they sort of approach the Koran and 
Islamic scriptures in general almost the way they do to the 
Bible by saying, Well, hey, there are a lot of interpretations.
    In Islam, it is not a metaphysical religion, it is very 
much grounded in the here and now and how you live with each 
other. And that was already explained and defined.
    Mr. Smith. Ignorance can occasionally cut in your favor 
from a broad policy standpoint, and I am suggesting that it is 
possible that we can use--the analogy that occurs to me is the 
situation with Taiwan. Is Taiwan part of mainland China or 
isn't it? Okay, we just sort of keep it very fuzzy. It is all 
good. As long as we don't sit down and have that very hard-
core, confrontational discussion--which seems to be where we 
are going now--then it is all fine. As long as we can maintain 
the myth, yeah, we are one China. At some point in the future 
we will get there.
    Mr. Ibrahim. We are maintaining the myth among ourselves, 
but they are not. They already know better.
    Mr. Smith. Sure. In my example, they are maintaining the 
myth within Taiwan and China, and it is working for them.
    And I am just asking--I could be totally wrong about this, 
but if you are saying that most Muslims don't know these sort 
of doctrinal specifics, then there is certainly a pretty big 
myth out there as well.
    They don't know, for instance, that the later 
interpretations are more important than the earlier. Rather 
than going up to them and saying, Hey, did you realize this? 
You may be creating a bigger problem for yourself.
    Mr. Ibrahim. But that is what the radicals are doing, and 
that is what I am saying. They are doing that, and they are 
showing it and they are getting recruits. And that is part of 
the Wahhabi movement with the Saudis, who are just spreading 
all their literature everywhere, which states all these things.
    And so, to me, it might not be very productive to have them 
mobilizing themselves with this, whereas we, kind of head in 
the sand, say, No, that is not what it is. And we have been 
doing that.
    Mr. Smith. Right. But you understand the basic rock and a 
hard place here.
    Mr. Ibrahim. Right, I understand that.
    Mr. Smith. That you can't rely on the ignorance argument 
that I just described; or, you know, it is hard to rely on the 
factual argument.
    The one question I do have from all of this is--admitting 
that we shouldn't talk about this; it is not something we can 
resolve--we still have to have a big-picture message; we still 
have to say what it is that we are fighting and how we are 
confronting it.
    Mr. Ibrahim. Right. I totally agree.
    Mr. Smith. And in that regard, I think that the memo you 
mentioned--that has been talked about much--is spot on because 
if we get into it, I don't see a path in the maze that doesn't 
simply create more trouble.
    And I will draw one distinction. You are saying that the 
memo said, Don't even talk about Sharia. I actually don't think 
that is what it said. You can talk about Sharia, you can talk 
about the stuff; don't link it to what we are fighting. Don't 
use it to describe what we are fighting. Don't say that they 
are Islamic terrorists or jihadists. Don't describe our enemy 
in those Islamic terms; not don't ever say Sharia, just don't 
use it as a way to describe what we are fighting.
    And within that narrow ban, based on sort of the box you 
have constructed for us, it seems to me that that is the best 
of a series of difficult choices.
    Mr. Ibrahim. Except in that it misleads Americans by not 
understanding what it is. Until you find the body of knowledge 
or the body of doctrine that is fueling your enemies, and you 
just kind of dismiss it and say they are just bad guys, I don't 
think you will be able to properly address it.
    And that is what I was saying earlier about education. 
Until we actually understand this body of knowledge and then 
use that as a base to try to implement strategies or to come up 
with it, I think that--and the strategy will not necessarily be 
one of violence, I don't think. I just think you are 
handicapped when you don't bring in what they say, what they 
believe, what they circulate amongst each other.
    Mr. Smith. One final argument on that--I may turn out to be 
wrong about that, there may be another argument. But my 
argument would be that you--first of all, I am not saying that 
our policymakers shouldn't be aware of this. They absolutely 
should. The question is whether or not they should use it as 
part of their argument, as part of their approach. And as you 
have described it, as a number of my colleagues have said in 
their questions, if, in fact, we take this approach; if, in 
fact, we send this mainly out to the broad, you know, American 
public--accepting for the moment that this an open public 
hearing--but if we send that message out, you wind up up 
against a brick wall basically.
    I think you, in a certain sense, have contradicted your 
core argument in the rather brilliant way that you have 
described it. If, in fact, we lay this out and if this is the 
argument, then you come up with a religion that basically we 
have no choice but to fight, because they will fight us because 
we lose the doctrinal argument.
    Mr. Ibrahim. No, no. What I am recommending is being blunt 
and up front about it, but not saying this is what you teach in 
a question; saying, look, We have a concern because theologians 
and doctrinal people, both Christians and Jews and Muslims, are 
seeing this thing in your text. Now, we are not saying that is 
what it is, but we want a clear and straightforward answer. In 
other words----
    Mr. Smith. Forgive me, but you are saying that is what it 
is.
    Mr. Ibrahim. No. We are saying this is what your guys have 
said, al Qa'ida.
    Mr. Smith. Do you think they are wrong? Al Qa'ida. This is 
what they are saying, this is how they----
    Mr. Ibrahim. Do I think their interpretation is wrong?
    Mr. Smith. Yes.
    Mr. Ibrahim. In certain respects--I will give you an 
example.
    One of the things that everyone will tell you, killing 
women and children is anti-Islamic. I have heard that from 
growing up until now, and everyone will tell you that. Now, 
again, this overlooks how Islamic jurisprudence articulates who 
and who not to kill.
    Mr. Smith. So you think they are right?
    That is my point. I mean, if you think they are right, then 
that is not something we should be broadcasting.
    Mr. Ibrahim. No, no. I am not saying I think they are 
right. I think they have a doctrinal base, that is all. And 
that is what I am saying; it would be better to get other 
Muslims or whoever to try to counter it. But, see, as long as 
it is buried, no one is going to be able to address it.
    I believe there may be a good way to address it, and--in a 
doctrinal way, and actually combat it and maybe even supplant 
it. But if we don't even acknowledge it, who is going to be 
able to start taking it seriously to try to formulate a 
counter-response? If it is just ignored, and amongst the Muslim 
world it is getting recruits and we totally ignore it, how can 
anyone start actually coming up with a counter-interpretation 
which really may be valid and may end up----
    Mr. Smith. Just to be clear, you don't have one at the 
moment?
    Mr. Ibrahim. I am not Muslim, and I don't consider myself a 
theologian; I am a student of Islamic law. But I have talked to 
some who have come up with very clever interpretations. But you 
are always going to have a problem with the core, who are known 
as the Salafis. And these are the people who just: All we want 
to do is the way Mohammed lived his life in the first three 
generations of Muslims, that is all there is to it.
    Now, there is no way that you are going to get beyond those 
people. And as I was saying, the problem is, even if 99 percent 
of the Muslim world doesn't agree with these doctrines, the 
nature of the war now is that a handful of people can do what 
9/11 was, and so that is what is going to happen. So even if 
the majority of the Muslim world doesn't agree, as long as you 
have a few people who are radical and no one is able to really 
study their body of doctrine to come up with a better 
interpretation, a couple of people are enough to create havoc.
    Mr. Smith. And just so I am clear, I am not suggesting in 
the least bit that we not study it. And I actually, based on my 
work with people at the NCTC, at NSC and State Department, I 
think they are very much aware of what you just described.
    Mr. Ibrahim. Good. That is reassuring.
    Mr. Smith. They are figuring out what the best way to 
counter it is.
    Mr. Ibrahim. And I am not saying that this should be 
broadcast to the American public. I may have misspoken. And I 
am not saying we should tell the American public these people 
want to kill us. I am saying in an internal kind of 
environment, this needs to be made open and made available and 
not expressed or censored or just ignored.
    Mr. Smith. And in my experience, this is a discussion at 
this committee that we have had. Difference in interpretation: 
What do you do about it? And you have described how difficult 
that is. Thank you for indulging me on that.
    Thank you both very much certainly on both of these 
subjects. I think this is very critical to what our 
subcommittee is doing and what our national security strategy 
is. One, we have got to figure out the best way to confront 
this ideology; however we describe it, it is clearly an 
ideology that threatens us. And then also in terms of how we 
structure it, I think we need to continue to do better about 
how we strategically implement a counter strategy.
    So I thank you very much. It is been very helpful. And we 
are adjourned.
    [Whereupon, at 3:30 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                           February 12, 2009
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 12, 2009

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 12, 2009

=======================================================================

      
                    QUESTIONS SUBMITTED BY MR. SMITH

    Mr. Smith. How should we deal with the issue of religious 
terminology when we craft our messages for foreign Muslim audiences?
    Mr. Ibrahim. Religious terminology should be treated as objectively 
as possible when addressing Muslim audiences. Islamic law (Sharia) 
assigns a clear definition to select Islamic terminology (e.g., jihad) 
and it is these definitions that Muslims acknowledge. To rely on 
equivocal or compromised Western definitions for the sake of being 
politically correct at best leads Muslims to think that the U.S. is 
naive. In short, whenever applicable--that is, whenever there is need 
to evoke Muslim terminology--mainstream definitions that mainstream 
Muslims subscribe to should be relied upon. That said, Muslim 
terminology should not be spoken or disseminated lightly by non-Muslims 
but rather only when appropriate. When appropriate, objective 
definitions--those present in Islam's juridical texts--should be used.
    Mr. Smith. You have pointed out significant issues with how the 
academic community approaches Islamic doctrine as an ideology. Through 
initiatives like the Minerva project, the DOD is proposing to reach out 
to just that academic community to try to seek insight to inform 
Department of Defense decision making. What recommendations would you 
suggest for the DOD to push the academic community to engage in a more 
open and intellectually honest discussion of these issues, particularly 
through mechanisms like Minerva?
    Mr. Ibrahim. The academic community should be encouraged to treat 
their topic objectively, rather than projecting their own 21st century, 
post-modern epistemology onto the Muslim world, as happens often. Jihad 
as a doctrinal obligation should be presented without apology or 
reticence. Euphemisms need to be dropped. Sharia law--what it is and 
its prominence in Muslim life--should be elaborated. History needs to 
be portrayed accurately, based on primary sources.
    Mr. Smith. What capabilities do you believe are necessary to 
improve U.S. government capabilities to conduct counter-ideology and 
counter-propaganda efforts?
    Mr. Ibrahim. 1) Freedom from fear of being censored, ostracized, or 
retaliated against. In short, knowing that one can speak their mind 
freely, without fear of reprisal. 2) Before being able to formulate 
proper counter-ideology efforts, the ideologies themselves must first 
be properly understood. Without being able to acknowledge the threat, 
finding strategies is doomed to failure. As for propaganda, it is just 
that--propaganda, and can only be fought with American ``propaganda'' 
(i.e., the battle to win ``hearts and minds''). In other words, the 
ideologies must be seen as objective and treated with commensurate 
strategies, while the propaganda must be seen as a way to incite 
Muslims and demoralize Americans. Unfortunately, it seems that the 
opposite--ignoring Islamist ideologies while seriously considering 
Islamist propaganda--is more in effect.
    Mr. Smith. What recommendations do you have for handling the 
Internet as a means for medium for extremist propaganda and ideology?
    Mr. Ibrahim. For Islamists as for others, the Internet has become 
the primary means of disseminating both their ideology as well as their 
propaganda. Accordingly, it should be closely monitored.
    Mr. Smith. Given the cultural and religious context, who should 
U.S. Government efforts target with any messages? What types of 
messages should the U.S. be sending? By region (or country), who are 
the actual centers of gravity to influence the vulnerable population, 
i.e. to keep the extremist message from gaining converts. Can U.S. 
efforts even add to the discussion or are any efforts doomed from the 
start? What is the vulnerable population? Who should we be targeting 
and what are the venue/media to communicate?
    Mr. Ibrahim. In this context, the two primary targets that 
ultimately matter are: 1) the religious authorities (the ulema--
scholars, sheikhs, imams, etc); and 2) the Muslim youth. As for the 
latter, Osama bin Laden himself delimited the age group jihadi 
organizations should target: 15- to 25-year-old males; these, then, 
make up the vulnerable population. Two things influence the 15- to 25-
year age group of men: 1) The perceived belief that the U.S. is 
``oppressing'' the Muslim world, and 2) the conviction that they are 
religiously-obligated to battle the U.S., as both an oppressive and 
infidel force.
    Originally, the ideas and ideologies emanated from Wahhabi Saudi 
Arabia, the original center of gravity whence ideas were actively 
disseminated. Increasingly, however, these ideologies have taken hold 
and now have indigenous representatives throughout the Muslim world 
(i.e., ``Salafis''). More practically, the primary center of gravity is 
the local mosque.
    The U.S. can try to ameliorate its image as oppressor, etc. 
However, the U.S. has little or no role in regards to ameliorating its 
de facto infidel/enemy status, a status due to Islamic law. The U.S. 
can and should support true moderate Muslims attempting to reform 
Islam; but it should not be visible, as its visibility will only cause 
other Muslim segments to accuse the American-supported moderates of 
being U.S. ``stooges,'' ``agents,'' and ultimately apostates.
    Mr. Smith. What cultural, personnel or other changes need to occur, 
in both State and Defense, to create the ``thicker connective tissue'' 
you describe in your written testimony?
    Dr. Doran. [The information referred to was not available at the 
time of printing.]
    Mr. Smith. The difficulties faced by the State Department go beyond 
more resources or more people. For State to claim a leadership role in 
strategic communication, there must be a broader cultural change in 
what types of things State does and how it carries out its mission. How 
can we positively effect that change? What role does (or should) DoD 
play in the process?
    Dr. Doran. [The information referred to was not available at the 
time of printing.]
    Mr. Smith. You've spoken of the position of the Under Secretary of 
State for Public Diplomacy and Public Affairs as a weak under 
secretary. How would you change the responsibilities and authorities of 
that position to make it effective as the strategic-operational center 
for the U.S. Government's strategic communication effort?
    Dr. Doran. [The information referred to was not available at the 
time of printing.]
    Mr. Smith. Based on your time in government service, and as an 
academic observer, could you give us your assessment of U.S. efforts at 
counter-ideology and strategic communication? What can be improved and 
how?
    Dr. Doran. [The information referred to was not available at the 
time of printing.]
    Mr. Smith. Many people have advocated the recreation of the U.S. 
Information Agency, or a new Center for Global Engagement--an 
independent agency no longer under the Department of State chain of 
command. Do you believe such a move is necessary? If so, what do you 
believe are the important structures or authorities that such an 
organization should possess? Are there other recommendations for how 
the U.S. Government should organize to provide a cohesive and 
comprehensive strategic communication and public diplomacy approach?
    Dr. Doran. [The information referred to was not available at the 
time of printing.]
    Mr. Smith. In your comments, you mentioned that Under Secretary of 
State Glassman began some programs to move the State Department beyond 
just telling America's story and getting at real strategic 
communication. Could you describe some of these programs? Have they 
continued since Under Secretary of State Glassman's departure?
    Dr. Doran. [The information referred to was not available at the 
time of printing.]
    Mr. Smith. What recommendations do you have for improving the 
Defense Department's organization and structure for dealing with 
strategic communication?
    Dr. Doran. [The information referred to was not available at the 
time of printing.]
    Mr. Smith. What capabilities do you believe are necessary to 
improve U.S. Government capabilities to conduct counter-ideology and 
counter-propaganda efforts?
    Dr. Doran. [The information referred to was not available at the 
time of printing.]
    Mr. Smith. What recommendations do you have for handling the 
Internet as a means for medium for extremist propaganda and ideology?
    Dr. Doran. [The information referred to was not available at the 
time of printing.]
    Mr. Smith. Given the cultural and religious context, who should 
U.S. Government efforts target with any messages? What types of 
messages should the U.S. be sending? By region (or country), who are 
the actual centers of gravity to influence the vulnerable population, 
i.e. to keep the extremist message from gaining converts. Can U.S. 
efforts even add to the discussion or are any efforts doomed from the 
start? What is the vulnerable population? Who should we be targeting 
and what are the venue/media to communicate?
    Dr. Doran. [The information referred to was not available at the 
time of printing.]

                                  <all>

</pre></body></html>
